  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL



MEDICARE AND BENEFICIARIES COULD
  SAVE BILLIONS IF CMS REDUCES
HOSPITAL OUTPATIENT DEPARTMENT
 PAYMENT RATES FOR AMBULATORY
   SURGICAL CENTER-APPROVED
   PROCEDURES TO AMBULATORY
 SURGICAL CENTER PAYMENT RATES
     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                Daniel R. Levinson
                                                 Inspector General

                                                     April 2014
                                                   A-05-12-00020
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                               EXECUTIVE SUMMARY

Medicare and beneficiaries could save billions if the Centers for Medicare & Medicaid
Services reduces hospital outpatient department payment rates for ambulatory surgical center-
approved procedures to the same level as ambulatory surgical center payment rates.

WHY WE DID THIS REVIEW

Medicare covers many outpatient surgical procedures commonly performed in both hospital
outpatient departments (outpatient departments) and in ambulatory surgical centers (ASCs).
Medicare ASC payment rates are frequently lower than outpatient department payment rates.
Thus, Medicare generally saves when outpatient surgical procedures that do not pose significant
risk to patients are performed in an ASC instead of an outpatient department. Our review
quantifies the impact of this payment differential on aggregate Medicare expenditures for
outpatient surgical procedures in the ASC setting as compared with outpatient departments. We
completed this review in response to a congressional request, which asked us to assess the impact
on total Medicare expenditures of providing surgical services in an ASC as opposed to other
outpatient settings.

Our objectives were to determine how much Medicare (1) has saved as a result of procedures
being performed in ASCs instead of outpatient departments and (2) could save if payment rates
for the outpatient departments were reduced to the same level as ASC payment rates.

BACKGROUND

In 1982, Medicare began covering services provided in ASCs because the Centers for Medicare
& Medicaid Services (CMS) recognized that some surgical services provided on an inpatient
basis could be safely performed in less intensive and less costly settings, such as ASCs and
outpatient departments. ASC prospective payment system (ASCPPS) rates are frequently lower
than outpatient prospective payment system (OPPS) rates, resulting in savings for Medicare.

Both the OPPS and ASCPPS must be budget neutral. Congress incorporated budget neutrality
into these payment systems to ensure that total Medicare payments would not increase or
decrease because of fluctuations within the systems themselves, other than the yearly adjustment
for inflation.

WHAT WE FOUND

Medicare saved almost $7 billion during calendar years (CYs) 2007 through 2011 and could
potentially save $12 billion from CYs 2012 through 2017 because ASC rates are frequently
lower than outpatient department rates for surgical procedures. In addition, Medicare could
generate savings of as much as $15 billion for CYs 2012 through 2017 if CMS reduces
outpatient department payment rates for ASC-approved procedures to ASC payment levels for
procedures performed on beneficiaries with low-risk and no-risk clinical needs.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   i
Beneficiaries would also save through reduced cost sharing. Beneficiaries saved approximately
$2 billion during CYs 2007 through 2011 and could potentially save an additional $3 billion for
the next 6 years because the ASC rates are frequently lower than outpatient department rates. In
addition, beneficiaries could potentially save as much as $2 billion to $4 billion more during the
6 years through CY 2017 if CMS reduces outpatient department payment rates for ASC-
approved procedures to ASC payment levels.

We recognize that not all procedures can be performed in an ASC because a procedure might
pose a significant safety risk to the patient. To account for this, we obtained patient-risk
statistics from the Agency for Healthcare Research and Quality. The risk statistics showed that
33 percent of hospital patients 65 and older were considered to have no-risk medical profiles and
an additional 35 percent were considered to be at low risk for procedures performed at an ASC.
In total, 68 percent of patients had either low- or no-risk medical profiles. We used these risk
profiles to estimate the range of potential savings to be between $7 billion and $15 billion for
Medicare for CYs 2012 through 2017.

WHAT WE RECOMMEND

We recommend that CMS:

     •    seek legislation that would exempt the reduced expenditures as a result of lower OPPS
          payment rates from budget neutrality adjustments for ASC-approved procedures.

If Congress passes the budget-neutrality exemption for the reduced expenditures, we recommend
that CMS take the following actions, which we estimated could save as much as $15 billion from
CYs 2012 through 2017:

     •    reduce OPPS payment rates for ASC-approved procedures on beneficiaries with no-risk
          or low-risk clinical needs in outpatient departments and then

     •    develop and implement a payment strategy in which outpatient departments would
          continue to receive the standard OPPS payment rate for ASC-approved procedures that
          must be provided in an outpatient department because of a beneficiary’s individual
          clinical needs.

CMS COMMENTS AND OUR RESPONSE

In written comments on our draft report, CMS did not concur with our recommendations. CMS
stated that adopting the recommendations would require legislation and that such a proposal is
not currently included in the President’s Budget. CMS also noted that the recommended changes
“…may raise circularity concerns with respect to the rate calculation process” because most ASC
payment rates are based on the OPPS payment rates that we are recommending that CMS reduce
and that we did not provide specific clinical criteria to distinguish patients’ risk levels.

We continue to recommend that CMS draft, and submit for review, a legislative proposal that
would exempt the reduced expenditures as a result of lower OPPS payment rates from budget



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   ii
neutrality adjustments for consideration for inclusion in future budget and legislative agendas.
As part of the process for developing the President’s Budget, CMS identifies program
vulnerabilities and offers solutions for addressing them. CMS has the authority to develop
legislative proposals for Medicare and has historically addressed some OIG recommendations to
seek legislative change by developing legislative proposals for possible inclusion in the
President’s budget and legislative program. Safeguarding programs from fraud, waste, and
abuse is an ongoing program management responsibility and some issues may require legislation
to address. We look forward to CMS’s final management decision in light of this clarification of
the intent of our recommendations.

Also, we agree that we did not provide specific clinical criteria to distinguish patients’ risk levels
and that, depending on the method used to implement our recommendations, circularity concerns
may arise. However, that does not prevent implementation of our recommendations. CMS is in
the best position to determine how to assess a patient’s risk and to develop a payment strategy
that would reduce OPPS payments for no- and low-risk patients without disrupting the current
payment methodologies. Considering the potential savings identified in our report, we maintain
that CMS should take the necessary steps to implement our recommendations.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   iii
                                                    TABLE OF CONTENTS

 INTRODUCTION .................................................................................................................... 1

            Why We Did This Review ............................................................................................ 1

            Objectives ..................................................................................................................... 1

            Background ................................................................................................................... 1
                  How the Hospital Outpatient Prospective Payment System Works ................. 1
                  How CMS Determines Payment Rates for Each Ambulatory Surgical
                    Center Service ............................................................................................... 2
                  Medicare Payments Must Remain Budget Neutral ........................................... 3
                  Medicare Beneficiaries Share the Financial Responsibility for Procedures
                    Performed ...................................................................................................... 3
                  Ambulatory Surgical Center-Approved Procedures Do Not Pose a
                    Significant Safety Risk to Most Patients ....................................................... 4
                  Prior OIG Work Identified a Payment Differential .......................................... 4

            How We Conducted This Review................................................................................. 5

 FINDINGS ................................................................................................................................ 5

            Medicare Experienced Savings Because of the Payment Differential .......................... 6

            Medicare Could Gain Additional Savings Through Legislative Change for Lower
              Outpatient Prospective Payment System Payment Rates......................................... 6

            Conclusion .................................................................................................................... 7

 RECOMMENDATIONS .......................................................................................................... 7

 CMS COMMENTS .................................................................................................................. 8

 OUR RESPONSE ..................................................................................................................... 8

 APPENDIXES .......................................................................................................................... 9

            A: Considering Patient Risk Using Agency for Healthcare Research and Quality
              Data .......................................................................................................................... 9

            B: Federal Requirements............................................................................................ 11

            C: Audit Scope and Methodology.............................................................................. 14

            D: Mathematical Calculation Methodology............................................................... 17

            E: Potential Savings for the Selected Sample ............................................................ 18

            F: CMS Comments .................................................................................................... 20

Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )                          iv
                                                     INTRODUCTION

WHY WE DID THIS REVIEW

Medicare covers many outpatient surgical procedures commonly performed in both hospital
outpatient departments (outpatient departments) and in ambulatory surgical centers (ASCs).
Medicare ASC payment rates are frequently lower than outpatient department payment rates.
Thus Medicare generally saves when outpatient surgical procedures that do not pose significant
risk to patients are performed in an ASC instead of an outpatient department. Our review
quantifies the impact of this payment differential on aggregate Medicare expenditures for
outpatient surgical procedures in the ASC setting as compared with outpatient departments. We
completed this review in response to a congressional request, which asked us to assess the impact
on total Medicare expenditures of providing surgical services in an ASC as opposed to other
outpatient settings.

OBJECTIVES

Our objectives were to determine how much Medicare (1) has saved as a result of procedures
being performed in ASCs instead of outpatient departments and (2) could save if payment rates
for the outpatient departments were reduced to the same level as ASC payment rates.

BACKGROUND

How the Hospital Outpatient Prospective Payment System Works

Medicare beneficiaries receive a wide range of services in outpatient departments, from
injections to complex procedures that require anesthesia. With changes in technology and
medical practices, services traditionally provided in inpatient settings are more frequently
provided in outpatient settings such as outpatient departments. In 2011, approximately 4,800
hospitals nationwide provided inpatient and outpatient services reimbursed by Medicare.

The Centers for Medicare & Medicaid Services (CMS) uses the hospital Outpatient Prospective
Payment System (OPPS) to pay outpatient departments for designated Medicare Part B services
furnished to hospital outpatients. 1 The services are identified by Healthcare Common Procedure
Coding System (HCPCS) codes. CMS classifies services into ambulatory payment
classifications (APCs) on the basis of clinical and resource use similarity. All services in an
APC have the same payment rate.

CMS determines the payment rate for each outpatient department service by multiplying the
relative weight for the service’s APC by an OPPS conversion factor. The relative weight for an
APC measures the resource requirements of the service and is based on the median cost of
services and procedures in that APC. The purpose of the conversion factor is to translate relative
weights into dollar amounts. The OPPS conversion factor is updated annually for inflation using


1
    42 CFR § 419.2(a). See also, Social Security Act (the Act), §§ 1833(t)(1)(A) and (t)(1)(B)(i).



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   1
the hospital market basket price index (HMB). 2 In addition, the OPPS conversion factor is
reduced by the Multifactor Productivity (MFP) 3 adjustment for 2012 and subsequent years 4 and
by an additional adjustment for 2010 through 2019. 5

How CMS Determines Payment Rates for Each Ambulatory Surgical Center Service

ASCs provide surgical services to patients who do not require an overnight stay. In 1982,
Medicare began covering services provided in ASCs
because CMS recognized that some surgical services             Figure 1: Medicare Case Volume
provided on an inpatient basis could be safely performed in             by Specialty 2010
less intensive and less costly settings. In 2011, there were
approximately 5,300 Medicare-certified ASCs nationwide.
The most common types of surgical services performed in
ASCs are presented in Figure 1. 6

The Medicare Prescription Drug, Improvement, and
Modernization Act of 2003 (MMA) required CMS to
implement a revised ASC payment system. As a result,
effective January 1, 2008, CMS implemented the ASC
Prospective Payment System (ASCPPS) based on the
OPPS, as recommended in the Government Accountability
Office (GAO) report mandated by Congress. 7 The revised
ASCPPS rate setting methodology continued to result in ASC payment rates that were frequently
less than OPPS payment rates for the same procedure. With certain exceptions, the calendar year
(CY) 2008 ASC payment rates were about 67 percent of the corresponding OPPS payment rates,
which reflects the lower cost of furnishing services in the ASC setting.

CMS determines the payment rate for each ASC service by multiplying the relative weight for
the service’s APC by the ASC conversion factor (adjusted for geographic differences). The APC
2
 CMS defines a market basket as a fixed-weight index that “answers the question of how much more or less it
would cost, at a later time, to purchase the same mix of goods and services that was purchased in a base period”
(55 Fed. Reg. 35990, 36044 (Sept. 4, 1990)). Individual market baskets are produced for many of the Medicare
payment systems to accurately measure anticipated price changes. The HMB index for 2012 was 3 percent (76 Fed.
Reg. 74122, 74189 (Nov. 30, 2011)).
3
 The MFP is an adjustment to the price index that reflects a change in productivity (output) that cannot be
accounted for by the change in inputs.
4
    The OPPS MFP adjustment for 2012 was 1 percent (76 Fed. Reg. 74122, 74189 (Nov. 30, 2011)).
5
 The additional adjustment for 2012 was 0.1 percent (the Act, §§1833(t)(3)(F)(ii) and (t)(3)(G)(ii)). See also,
42 CFR § 419.32(b)(1)(iv)(B)(3).
6
    ASC Association, Ambulatory Surgery Centers: A Positive Trend in Health Care, October 8, 2011.
7
 GAO, Payment for Ambulatory Surgical Centers Should Be Based on the Hospital Outpatient Payment System
(GAO-07-86), November 2006.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   2
relative weights for most procedures in the ASCPPS are the same as the relative weights in the
OPPS. The ASC conversion factor also translates the relative weights into dollar amounts and
was originally created as a percentage of the OPPS conversion factor; however, it is updated
annually for inflation using the Consumer Price Index for All Urban Consumers 8
(CPI-U) and the ASCPPS MFP adjustment. 9

Medicare Payments Must Remain Budget Neutral

Both the OPPS and ASCPPS must be budget neutral (the Act, § 1833). Congress incorporated
budget neutrality into these payment systems to ensure that total Medicare payments would not
increase because of fluctuations within the systems themselves, other than the yearly adjustment
for inflation. Thus, the effects of an increase in the relative weights of some procedures would
be offset by a decrease in the relative weights of other procedures.

The MMA required that the revised ASC payment system be budget neutral, similar to the
OPPS. That is, the payment rates are intended to ensure that total Medicare expenditures under
the revised payment methodology for ASCs will be approximately the same as the expenditures
would have been in the same year without the revised ASC payment system.

Medicare Beneficiaries Share the Financial Responsibility for Procedures Performed

“Beneficiary cost sharing” is the Medicare beneficiary’s share of the financial responsibility for
the procedure performed. For ASC procedures provided on or after January 1, 2008, the
beneficiary pays the lesser of “20 percent of the actual charge or 20 percent of the prospective
payment amount . . . .” (42 CFR § 410.152(i)(2)). For procedures provided in outpatient
departments, Medicare is transitioning to a standard Medicare 20 percent coinsurance rate by
requiring the beneficiary to pay the greater of 20 percent of the APC payment or, for certain
services, a set payment amount which cannot exceed 40 percent of the APC payment (42 CFR
§§ 419.40–419.42)). 10 When the beneficiary’s clinical needs allow for a procedure to be
performed in an ASC, the beneficiary could choose to do so and benefit because the payment
rates are usually lower than in an outpatient department. If the procedure is performed in an
outpatient department, both the Medicare payment and the beneficiary cost-sharing amount are
generally higher.


8
  The Bureau of Labor Statistics’ Web site states “the CPI-U represents changes in prices of all goods and services
purchased for consumption by urban households” and covers approximately 87 percent of the total population
(Bureau of Labor Statistics, Overview. – Accessed on July 25, 2013). For the purposes of the ASC conversion
factor, the CPI-U for 2012 was 2.7 percent (76 Fed. Reg. 74122, 74450 (Nov. 30, 2011)).
9
    The ASCPPS MFP adjustment for 2012 was 1.1 percent (76 Fed. Reg. 74122, 74450 (Nov. 30, 2011)).
10
  As the total APC payment increases each year, the set payment amount will become a smaller portion of the total
payment until it represents 20 percent of the total payment. CMS estimated that, for CY 2013, the overall
beneficiary share of total payments for Medicare-covered hospital outpatient services would be about 21.6 percent.
(CMS, Proposed 2013 Policy, Payment Changes for Hospital Outpatient Departments, Ambulatory Surgical
Centers, Inpatient Rehabilitat [sic], fact sheet, July 6, 2012.).




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   3
Ambulatory Surgical Center-Approved Procedures Do Not Pose a Significant Safety Risk
to Most Patients

In selecting covered surgical procedures payable under ASCPPS, the Secretary of Health and
Human Services (the Secretary) must select only those procedures that “would not be expected to
pose a significant safety risk to a Medicare beneficiary
when performed in an ASC . . . .” (42 CFR § 416.166(b)).
However, “[t]he decision regarding the most appropriate                Figure 2: AHRQ Patient
                                                                     Medical Profile Risk Analysis
care setting [e.g., an ASC or outpatient department] for a
given surgical procedure is made by the physician based
on the beneficiary’s individual clinical needs and
preferences.” 11 Accordingly, a physician may determine
                                                                          No-            High-
that a covered procedure cannot be performed in an ASC                    Risk           Risk
because of a specific patient’s clinical needs. To account                33%            32%
for these procedures in our report, we obtained statistics
from the Agency for Healthcare Research and Quality
(AHRQ) derived from 3,072,311 CY 2010 health records                             Low-
for patients 65 or older. AHRQ statistics showed that                            Risk
                                                                                 35%
approximately 32 percent of these patients were
considered to have high-risk medical profiles and 68
percent of patients had no-risk (33 percent) or low-risk
(35 percent) medical profiles. These statistics are displayed in Figure 2. See Appendix A for a
detailed explanation of AHRQ’s patient-risk statistics. For purposes of this report, we accounted
for patients whose clinical needs would prevent them from having covered surgical procedures in
ASCs by excluding a percentage of patients with high-risk medical profiles (32 percent) from our
estimates.

Prior OIG Work Identified a Payment Differential

In 2003, the Office of Inspector General (OIG) issued a report 12 stating that a payment
differential existed between ASC and outpatient department Medicare payment rates, as
identified in the OPPS and ASCPPS fee schedules. For 66 percent of the procedure codes
examined for CY 2001, outpatient department payment rates were higher than ASC payment
rates, with a median difference of $282.33. For the remaining 34 percent of procedure codes
reviewed, ASC payment rates were higher than outpatient department payment rates, with a
median difference of $135.78. We estimated Medicare paid $1.1 billion more for services
provided in outpatient departments during CY 2001 than it would have paid if outpatient
department payment rates equaled ASC payment rates.




11
     Medicare Claims Processing Manual, Pub. No. 100-04, ch. 14, § 20.1.
12
  Payment for Procedures in Outpatient Departments and Ambulatory Surgical Centers (OEI-05-00-00340, issued
Jan. 2003).



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   4
HOW WE CONDUCTED THIS REVIEW

We limited our review to Medicare Part B payments to ASCs and outpatient departments for
ASC-approved procedures performed during CYs 2007 through 2011. From a total of
approximately $12.6 billion that Medicare paid to ASCs for procedures performed during that
period, we reviewed claims that included 413 ASC-approved HCPCS codes (representing
96 percent of procedures performed in ASCs and 95 percent of Medicare payments at ASCs).
We selected the 413 HCPCS codes that during any 1 year of our audit period: (1) were
performed at ASCs at least 1,000 times or (2) for which Medicare reimbursed at least $1 million.
We compared the average Medicare payments for the selected HCPCS codes at ASCs and
outpatient departments to identify the payment differential during the review period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A gives details on AHRQ patient-risk data; Appendix B lists the Federal requirements
related to ASCs, outpatient departments, and the respective payment systems; and Appendix C
provides the details of our audit scope and methodology. Appendix D shows our mathematical
calculation methodology, and Appendix E has the results of our calculations.

                                                          FINDINGS

Medicare saved almost $7 billion during CYs 2007 through 2011 and could potentially save
$12 billion during CYs 2012 through 2017 because the ASC rates are frequently lower than
outpatient department rates for outpatient surgical procedures performed at ASCs. Medicare
could generate additional savings of as much as $15 billion if CMS reduces outpatient
department payment rates for ASC-approved procedures to ASC payment levels for procedures
performed on beneficiaries with low-risk and no-risk clinical needs. Figure 3 summarizes the
CYs 2012 through 2017 Medicare savings.

                              Figure 3: Medicare Savings CYs 2012-2017
                                                                   $27.13               Additional Savings With Reduced
                    $30.00                                                              OPPS Rates - Low-Risk Patients
                                                 $19.56                                 Only (35 percent)
                    $25.00                                       $7.57
                    $20.00                                                              Additional Savings With Reduced
      In Billions




                               $12.42          $7.14             $7.14                  OPPS Rates - No-Risk Patients
                    $15.00                                                              Only (33 percent)
                    $10.00
                             $12.42           $12.42            $12.42                  Future ASC Savings - No Changes
                     $5.00
                       $-




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )       5
These Medicare figures do not include savings to the beneficiary for cost sharing. Beneficiaries
saved approximately $2 billion during CYs 2007 through 2011. During CYs 2012 through 2017,
beneficiaries could potentially save $3 billion because the ASC rates are frequently lower than
outpatient department rates for outpatient surgical procedures performed at ASCs. Beneficiaries
could potentially save an additional $2 billion to $4 billion during CYs 2012 through 2017 if
CMS reduces outpatient department payment rates for ASC-approved procedures to ASC
payment levels.

MEDICARE EXPERIENCED SAVINGS BECAUSE OF THE PAYMENT
DIFFERENTIAL

The difference between ASC and outpatient department payment rates saved Medicare almost
$7 billion and beneficiaries an additional $2 billion during CYs 2007 through 2011. For
96 percent of the HCPCS codes examined, ASC average payments were lower than outpatient
department average payments with the largest median 13 difference of $364.90 occurring in 2009.
Table 1 summarizes the median differences of average payments by year for selected HCPCS
codes.

                      Table 1: Median Differences Between Average ASCPPS and
                                OPPS Payments for Selected HCPCS
                        2007        2008        2009       2010       2011
                        $294.13           $341.95            $364.90           $348.22            $363.15

Assuming that utilization does not change for ASCs and outpatient departments during
CYs 2012 through 2017 from that of CY 2011, Medicare will save approximately $12 billion
because of the payment differential. CMS does not need to make any changes, nor do ASCs
have to perform any additional procedures, for these savings to occur. Estimated beneficiary
savings of approximately $3 billion are in addition to these estimated Medicare savings.

MEDICARE COULD GAIN ADDITIONAL SAVINGS THROUGH LEGISLATIVE
CHANGE FOR LOWER OUTPATIENT PROSPECTIVE PAYMENT SYSTEM
PAYMENT RATES

Medicare and its beneficiaries could save more if CMS lowered OPPS payment rates for
ASC-approved procedures to the level of ASC payment rates. However without legislative
change, budget neutrality required by section 1833(t)(9)(B) of the Act would negate these
savings. The budget neutrality adjustment applied to the OPPS rate setting methodology causes
any decreases in relative weights to be offset by increases in other relative weights. In effect,
lowered rates for some procedures would result in higher rates for others. For Medicare to
realize these additional savings long-term, legislation must allow the OPPS rates for
ASC-approved procedures to be determined in a non-budget-neutral manner (i.e., outside of
section 1833(t)(9)(B) of the Act).
13
  The average differences included several outliers and anomalies. Therefore, we based our analysis on the median
rather than the mean.



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   6
When calculating potential savings, we assumed that CMS would lower OPPS rates for
ASC-approved procedures to at least equal that of ASCPPS rates, when, in fact, CMS could
lower rates to any level it deemed reasonable. We calculated the potential savings for CYs 2012
through 2017 by using (1) CY 2011 utilization data, (2) the estimated increase in OPPS payment
rates based on changes in the HMB price index and related MFP adjustment, and (3) the
estimated increase in the ASCPPS payment rates on the basis of changes in the CPI-U price
index and related MFP adjustment.

With legislative change and reduced OPPS rates for ASC-approved procedures, Medicare could
generate potential savings of as much as $15 billion during these years for beneficiaries without
high-risk medical profiles. We recognize that not all beneficiaries can receive services in an
ASC because of the beneficiaries’ clinical needs. To account for these beneficiaries, we used
AHRQ statistics to exclude procedures for a percentage of beneficiaries with high-risk medical
profiles (32 percent of patients) and reduced our total estimated savings to a range of
approximately $7 billion to $15 billion. These savings are stated as a range to present potential
savings of $7 billion for those procedures performed on beneficiaries with only no-risk medical
profiles (33 percent of patients), to potential savings of $15 billion for those procedures
performed on beneficiaries with only low- and no-risk medical profiles (68 percent of patients).
In addition, these beneficiaries could potentially save an additional $2 billion to $4 billion during
these years.

We recognize that when procedures must be performed in an outpatient department because of
the beneficiary’s clinical needs, higher costs would be possible. As such, these services could be
reimbursed at the standard OPPS rate. 14

CONCLUSION

As a result of the payment differential, Medicare saved almost $7 billion and beneficiaries saved
an additional $2 billion during CYs 2007 through 2011. Also, Medicare and beneficiaries could
save an additional $12 billion and $3 billion, respectively, during CYs 2012 through 2017. We
estimated that Medicare could save as much as $15 billion more and beneficiaries could
potentially save as much as $4 billion more if CMS changes the way it pays outpatient
departments for certain ASC-approved procedures.

                                                RECOMMENDATIONS

We recommend that CMS:

     •    seek legislation that would exempt the reduced expenditures as a result of lower OPPS
          payment rates from budget neutrality adjustments for ASC-approved procedures.


14
  However, if Congress makes the recommended legislative change and CMS reduces OPPS rates for ASC-
approved procedures, we do not intend for CMS to use AHRQ statistics to implement the reduced OPPS rates or any
necessary exceptions to those rates.



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   7
If Congress passes the budget-neutrality exemption for the reduced expenditures, we recommend
that CMS take the following actions, which we estimated could save as much as $15 billion for
CYs 2012 through 2017:

     •    reduce OPPS payment rates for ASC-approved procedures on beneficiaries with no-risk
          or low-risk clinical needs in outpatient departments and then

     •    develop and implement a payment strategy in which outpatient departments would
          continue to receive the standard OPPS payment rate for ASC-approved procedures that
          must be provided in an outpatient department because of a beneficiary’s individual
          clinical needs.

                                                    CMS COMMENTS

In written comments on our draft report, CMS did not concur with our recommendations. CMS
stated that adopting the recommendations would require legislation and that such a proposal is
not currently included in the President’s Budget. CMS also noted that the recommended changes
“…may raise circularity concerns with respect to the rate calculation process” because most ASC
payment rates are based on the OPPS payment rates that we are recommending that CMS reduce
and that OIG did not provide specific clinical criteria to distinguish patients’ risk levels. CMS’s
comments are included in their entirety as Appendix F.

                            OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that CMS draft, and submit for review, a legislative proposal that
would exempt the reduced expenditures as a result of lower OPPS payment rates from budget
neutrality adjustments for consideration for inclusion in future budget and legislative agendas.
As part of the process for developing the President’s Budget, CMS identifies program
vulnerabilities and offers solutions for addressing them. CMS has the authority to develop
legislative proposals for Medicare and has historically addressed some OIG recommendations to
seek legislative change by developing legislative proposals for possible inclusion in the
President’s budget and legislative program. Safeguarding programs from fraud, waste, and
abuse is an ongoing program management responsibility and some issues may require legislation
to address. We look forward to CMS’s final management decision in light of this clarification of
the intent of our recommendations.

Also, we agree that we did not provide specific clinical criteria to distinguish patients’ risk levels
and that, depending on the method used to implement our recommendations, circularity concerns
may arise. However, that does not prevent implementation of our recommendations. CMS is in
the best position to determine how to assess a patient’s risk and to develop a payment strategy
that would reduce OPPS payments for no- and low-risk patients without disrupting the current
payment methodologies. Considering the potential savings identified in our report, we maintain
that CMS should take the necessary steps to implement our recommendations.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   8
            APPENDIX A: CONSIDERING PATIENT RISK USING AGENCY FOR
                   HEALTHCARE RESEARCH AND QUALITY DATA

To account for patient risk, OIG obtained statistics from the Healthcare Cost and Utilization
Project (HCUP).

The HCUP is a family of health care databases and related software tools and products
developed through a Federal-State-industry partnership and sponsored by AHRQ. HCUP
includes the largest collection of hospital care data in the United States, with encounter-level
information beginning in 1988. HCUP databases bring together the data collection efforts of
State data organizations, hospital associations, private data organizations, and the Federal
Government to create a national information resource of patient-level health care data.

AHRQ officials provided us with research data from a study AHRQ did of the HCUP exploring
short-stay (less than 2 days) surgeries performed for adults 65 and older with common risk
factors (defined below) using CY 2010 data from 27 State data organizations that participate in
HCUP State Inpatient Databases and State Ambulatory Surgery Databases. The organizations
came from these States: California, Colorado, Connecticut, Florida, Georgia, Hawaii, Iowa,
Illinois, Indiana, Kansas, Kentucky, Maryland, Michigan, Minnesota, Missouri, North Carolina,
Nebraska, New Jersey, New York, Ohio, Oklahoma, Oregon, South Carolina, South Dakota,
Tennessee, Vermont, and Wisconsin.

AHRQ officials used a population of 3,072,311 HCUP records during CY 2010 for patients
meeting the following criteria:

     •    65 or older,

     •    treated and discharged at community nonrehabilitation hospitals,

     •    with inpatient stays of 2 days or less, and

     •    whose patient records included at least one diagnosis or procedure code fitting the HCUP
          narrow definition of “surgery.”

Patient-Risk Level Defined

AHRQ officials identified patients as high risk, low risk, or no risk on the basis of the following
risk factor conditions: age 80 and older, cancer, diabetes, mental health and substance abuse
disorders, nervous system disorder, heart disease, asthma/chronic obstructive pulmonary disease,
renal failure, arthritis, or obesity. A high-risk patient was defined as having two or more of these
risk factor conditions. A low-risk patient was defined as having one of these risk factor
conditions. A no-risk patient was defined as having none of these risk factor conditions. AHRQ
officials defined these risk factors by grouping chronic diagnosis codes and then identifying
records of patients with discharges including these diagnosis codes.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   9
Agency for Healthcare Research and Quality Data Results

Of the 3,072,311 patient-discharge records in the population, 32 percent included two or more
risk factors and were considered high risk. Thirty-five percent included one risk factor and were
considered as having low risk. The remaining 33 percent were considered as having no risk
because the record did not contain any of the selected risk factors. Table 2 summarizes these
patient risk level results.

                                             Table 2: Patient-Risk Levels

                                                                Percent of          Low- and
                           Risk Factors                                                                  No-Risk
                                                                  Total             No-Risk
               No-Risk (0 factors)                                 33%                33%                    33%
               Low-Risk (1 factor)                                 35%                35%
               High-Risk (2 or more factors)                       32%
                Total                                            100%                   68%                 33%

These results show that approximately 32 percent of patients have a high-risk medical profile and
that the remaining 68 percent of patients have no-risk (33 percent) or low-risk (35 percent)
medical profiles.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   10
                                APPENDIX B: FEDERAL REQUIREMENTS

FEDERAL REQUIREMENTS FOR AMBULATORY SURGICAL CENTER-
APPROVED PROCEDURES

Federal regulations at 42 CFR § 416.166 state that surgical procedures in an ASC that are
covered by Medicare (ASC-approved) must include only outpatient surgeries that CMS has
determined do not pose a significant safety risk to the patient when furnished in an ASC, are not
expected to require active medical monitoring at midnight following the procedure (i.e., an
overnight stay), and are separately paid under OPPS. Excluded surgical procedures have the
following characteristics:

          (1) Generally result in extensive blood loss;

          (2) Require major or prolonged invasion of body cavities;

          (3) Directly involve major blood vessels;

          (4) Are generally emergent or life threatening in nature;

          (5) Commonly require systemic thrombolytic therapy;

          (6) Are designated as requiring inpatient care under § 419.22(n);

          (7) Can only be reported using a CPT [common procedural terminology] unlisted
              surgical procedure code; or

          (8) Are otherwise excluded under § 411.15.

FEDERAL REQUIREMENTS FOR THE OUTPATIENT PROSPECTIVE PAYMENT
SYSTEM

Sections 1833(t)(1)(A) and (t)(1)(B)(i) of the Act require the establishment of a prospective
payment system for covered outpatient department services. Covered outpatient department
services are designated by the Secretary. Section 419.2(a) of 42 CFR states the services are
identified by HCPCS codes.

The basic methodology for determining OPPS payment rates is set forth in 42 CFR part 419
subpart C. Section 419.31(a) states that CMS classifies outpatient services and procedures into
APC groups on the basis of clinical and resource use similarity. Section 419.32(c) defines the
OPPS payment rate as the product of the OPPS conversion factor and APC relative weight, and
section 419.32(b) states that the OPPS conversion factor is updated yearly partly on the basis of
the HMB percentage increase. Section 419.32(b)(1)(iv)(B)(3) states that the percentage increase
determined under (b)(1)(IV)(a) is reduced by the following for the specified year and for
CY 2012: a multifactor adjustment and a 0.1 percentage point. The APC relative weights are
determined by a process explained in section 419.31(b).



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   11
Section 1833(t)(3)(F)(i) of the Act requires that the OPPS increase factor be reduced by the
productivity adjustment for 2012 and subsequent years. Sections (t)(3)(F)(ii) and (t)(3)(G)(ii)
discuss additional adjustments for 2010 through 2019.

Section 419.41(b) of 42 CFR states that, each year, CMS calculates the Medicare payment
percentage for each APC group on the basis of each group’s unadjusted copayment amount and
its payment rate adjusted by the conversion factor. For each APC group, the beneficiary’s
coinsurance percentage is the greater of 20 percent or the ratio of the APC group unadjusted
copayment amount to the APC group payment rate (42 CFR § 419.40(b)(1)). However, the
coinsurance percentage cannot exceed 40 percent (42 CFR § 419.41(c)(4)(iii)). In addition, the
copayment amount cannot exceed the amount of the inpatient hospital deductible (42 CFR
§ 419.41(c)(4)(i)).

FEDERAL REQUIREMENTS FOR THE AMBULATORY SURGICAL CENTER
PROSPECTIVE PAYMENT SYSTEM

Section 626(b)(2) of the MMA required CMS to revise the ASC payment system no later than
January 1, 2008. Subparagraph (D) of section 1833(i)(2) of the Act, as added by the MMA and
later amended by section 5103 of the Deficit Reduction Act of 2005, reads as follows:

                  (D)(i) Taking into account the recommendations in the report under
          section 626(d) of Medicare Prescription Drug, Improvement, and Modernization
          Act of 2003, the Secretary shall implement a revised payment system for payment
          of surgical services furnished in ambulatory surgical centers.
                  (ii) In the year the system described in clause (i) is implemented, such
          system shall be designed to result in the same aggregate amount of expenditures
          for such services as would be made if this subparagraph did not apply, as
          estimated by the Secretary and taking into account reduced expenditures that
          would apply if subparagraph (E) were to continue to apply, as estimated by the
          Secretary.
                  (iii) The Secretary shall implement the system described in clause (i) for
          periods in a manner so that it is first effective beginning on or after January 1,
          2006, and not later than January 1, 2008.

The ASC rate setting methodology under the revised ASC payment system is set forth in 42 CFR
§ 416 subpart F. Section 416.167(a) includes the requirement that covered surgical procedures
and covered ancillary services are identified by codes established under the HCPCS as the unit of
payment. Section 416.167(b)(1) states that ASC-covered surgical procedures are classified using
the APC groups described in section 419.31. Section 416.171 describes the determination of
payment rates. Specifically, section 416.171(a) states the standard methodology is to calculate
the product of the ASC conversion factor and the APC relative payment weight. Section
416.171(a)(2)(ii) states that, for CY 2010 and subsequent CYs, the ASC conversion factor is
updated using the CPI-U. The APC relative weights are determined by a process explained in
section 416.167(b).




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   12
Section 1833(i)(2)(D)(v) of the Act requires that, effective for CY 2011 and subsequent years,
any annual update under the ASC payment system be reduced by a productivity adjustment.

Charges for services covered under the ASCPPS beyond the 80 percent Medicare covers are the
beneficiary’s responsibility. For ASC services furnished on or after January 1, 2008, “Medicare
Part B pays the lesser of 80 percent of the actual charge or 80 percent of the prospective payment
amount, geographically adjusted, if applicable ...” (42 CFR § 410.152(i)(2)). Therefore, the
beneficiary’s financial responsibility “is 20 percent of the actual charge or 20 percent of the
prospective payment amount, geographically adjusted, if applicable.”

FEDERAL REQUIREMENTS FOR BUDGET NEUTRALITY

Section 1833(t)(9)(B) of the Act regarding the OPPS states that “[i]f the Secretary makes
adjustments under subparagraph (A), then the adjustments for a year may not cause the estimated
amount of expenditures under this part for the year to increase or decrease from the estimated
amount of expenditures under this part that would have been made if the adjustments had not
been made.”

Section 1833(i)(2)(D) of the Act regarding the ASCPPS states that “a revised payment system
for payment of surgical services furnished in ambulatory surgical centers … shall be designed to
result in the same aggregate amount of expenditures for such services as would be made if this
subparagraph did not apply, as estimated by the Secretary and taking into account reduced
expenditures that would apply if subparagraph (E) were to continue to apply, as estimated by the
Secretary.”

In the Final Rule, CMS-1517-F (72 Fed. Reg. 42470, 42533 (Aug. 2, 2007)), CMS stated that it
will “update the ASC relative payment weights in the revised ASC payment system each year
using the national OPPS relative payment weights for that same calendar year and uniformly
scale the ASC relative payment weights for each update year to make them budget neutral.”




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   13
                        APPENDIX C: AUDIT SCOPE AND METHODOLOGY

SCOPE

We limited our review to Medicare Part B payments to ASCs and outpatient departments for
ASC-approved procedures paid for during CYs 2007 through 2011. We identified average
Medicare payments and the numbers of procedures performed in ASCs and outpatient
departments. We limited our review to only those HCPCS codes during any given year (1) that
were performed at ASCs at least 1,000 times or (2) for which Medicare reimbursed ASCs at least
$1 million. The selected sample was 413 HCPCS codes during the period under review and
represents 96 percent of procedures performed and 95 percent of Medicare payments at ASCs.

Using this information, we compared the average Medicare payments for the selected HCPCS
codes at ASCs and outpatient departments to identify the payment differential during the review
period. We determined the amount that could have been saved had all HCPCS in our sample
been performed at ASCs during this period. Furthermore, we calculated the potential Medicare
savings from CYs 2012 through 2017 using CY 2011 utilization and payment rates. We did not
adjust our calculations to include changes in utilization; however, we did adjust for changes in
payment rates using the annual HMB and CPI-U price index updates and the MFP adjustments.

We used CY 2011 payment rates because 2011 was the first year that CMS calculated ASC
payment rates using only the revised methodology established under 42 CFR § 416 subpart F.
Federal regulations required CMS to implement the ASCPPS using a transitional period during
CYs 2008 through 2010 (42 CFR § 416.171(c)). In addition, CY 2011 was the most current year
of data available at the time.

We did not review the overall internal control structure of CMS as it relates to the Medicare
payment system for ASCPPS and OPPS. Rather, we limited our internal control review to those
controls that related to the objective of our audit.

We conducted fieldwork at the CMS Central Office in Baltimore, Maryland, from February
through November, 2012.

METHODOLOGY

To accomplish our objective, we:

     •    reviewed applicable Federal laws, regulations, and guidance;

     •    held discussions with CMS officials to identify and gain an understanding of policies and
          procedures related to the ambulatory surgical services and hospital outpatient department
          programs;

     •    obtained Medicare utilization and payment data from the CMS’s National Claims History
          File by HCPCS code for ambulatory surgical services provided in ASCs and outpatient
          departments for the period January 1, 2007, through December 31, 2011;



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   14
     •    obtained CYs 2013 through 2017 estimated HMB and CPI-U price index updates and
          respective MFP adjustments from CMS’s Office of the Actuary (OACT);

     •    identified total Medicare expenditures related to all procedures performed in ASC and
          outpatient department settings;

     •    created a sampling frame of 12,182 HCPCS codes that were associated with 3.4 billion
          procedures performed totaling $234 billion for the 5-year period under review which
          included:

               o 35 million procedures reimbursed at ASCs for Medicare payments totaling
                 $13 billion; and

               o 3.4 billion procedures reimbursed at outpatient departments for Medicare
                 payments totaling $221 billion;

     •    selected from the sampling frame a judgmental sample of 413 HCPCS codes: 15

               o that were performed at ASCs at least 1,000 times during any 1 year 16 or

               o for which Medicare reimbursed ASCs at least $1 million during any 1 year;

     •    calculated ASCPPS payments as a percentage of OPPS payments for each year and for
          the combined 5-year audit period;

     •    calculated the average Medicare payment per HCPCS code in both the ASC and
          outpatient department settings;

     •    calculated the difference between average Medicare payments for procedures performed
          in ASCs and average Medicare payments for the same procedures performed in
          outpatient departments;

     •    calculated Medicare savings for each year in our audit period by multiplying utilization
          by the difference between average ASC and outpatient department Medicare payments;

     •    calculated future potential savings using CY 2011 utilization data and the difference
          between the average ASC and outpatient department payments updated each year for
          estimated changes in the CPI-U and HMB price indexes and the MFP adjustments;



15
   These 413 HCPCS codes related to 96 percent of procedures performed and 95 percent of Medicare
reimbursements during the audit period. Specifically, Medicare reimbursed providers $12,089,489,909 for
33,767,338 procedures performed at ASCs and $35,732,207,819 for 56,806,824 of the same procedures performed
at outpatient departments during our audit period.
16
  The selection criteria specify that the condition need only be met during any 1 year, so many HCPCS codes may
not meet the criteria during all years.



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   15
     •    obtained AHRQ statistical data on patient risk and applied the data to our findings
          (Appendix B);

     •    identified that 20 percent is a conservative and approximate amount of beneficiary cost
          sharing and applied the percentage to our findings;

     •    determined the effects of budget neutrality on changes in utilization and payment rates;
          and

     •    discussed the results of our review with CMS officials.

See Appendix D for our mathematical calculation methodology and Appendix E for our sample
results and potential savings.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   16
            APPENDIX D: MATHEMATICAL CALCULATION METHODOLOGY

MEDICARE SAVINGS FOR 2007 THROUGH 2011

To determine the savings Medicare experienced during CYs 2007 through 2011 because of the
payment differential, we calculated the difference between the average Medicare payments in
ASCs and outpatient departments for each HCPCS code in each year, multiplied the difference in
average payment by the ASC utilization, and totaled each year’s results.

POTENTIAL MEDICARE SAVINGS FOR 2012 THROUGH 2017

To estimate the savings Medicare could experience during CYs 2012 through 2017 because of
the payment differential, we used CY 2011 ASC utilization and estimated increases in payment
rates using HMB and CPI-U estimates and MFP adjustments. We calculated the difference
between the projected average Medicare payments in ASCs and outpatient departments for each
HCPCS code during the timeframe.

POTENTIAL MEDICARE SAVINGS FOR 2012 THROUGH 2017 BY LOWERING
OUTPATIENT PROSPECTIVE PAYMENT SYSTEM PAYMENT RATES TO EQUAL
AMBULATORY SURGICAL CENTER PROSPECTIVE PAYMENT SYSTEM RATES

To estimate the potential Medicare savings for CYs 2012 through 2017 if CMS lowered OPPS
rates to equal ASCPPS rates, we used (1) CY 2011 outpatient department utilization, (2) the
estimated increase in OPPS payment rates based on changes in the HMB price index and related
MFP adjustment, and (3) the estimated increase in the ASCPPS payment rates based on changes
in the CPI-U price index and related MFP adjustment. We did not estimate for increases in
utilization. We calculated the difference between the estimated average Medicare payments in
ASCs and outpatient departments for each HCPCS code, multiplied that difference by the 2011
utilization amounts, summed the total for all HCPCS, and summed the yearly totals for
CYs 2012 through 2017.

We adjusted the estimated total savings to reflect a range of more conservative savings for
procedures that cannot be performed in an ASC because of patient risk by multiplying the
estimated savings by 33 percent and 68 percent.




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   17
             APPENDIX E: POTENTIAL SAVINGS FOR THE SELECTED SAMPLE


                                                      Table 3: Results

                HCPCS                         ASCs                                     Outpatient Departments
     Year       Codes             Utilization  Reimbursements                        Utilization  Reimbursements
     2007        335                 6,183,115   $2,234,435,661                       11,294,362    $5,261,148,371
     2008        389                 6,715,120     2,344,484,318                      11,633,361     6,528,775,831
     2009        386                 7,037,850     2,434,219,342                      12,380,024     7,434,935,153
     2010        390                 7,267,716     2,510,848,058                      10,463,074     7,943,756,809
     2011        392                 6,563,537     2,565,502,530                      11,036,003     8,563,591,655
     Total       413 17            33,767,338 $12,089,489,909                         56,806,824 $35,732,207,819


                  Table 4: Estimated Medicare Savings for CYs 2007 Through 2011

                                       Year                   Estimated Savings
                                       2007                    $ 795,652,581
                                       2008                     1,084,518,402
                                       2009                     1,448,920,045
                                       2010                     1,648,016,920
                                       2011                     1,835,751,695
                                       Total                   $6,812,859,643


                   Table 5: Potential Medicare Savings for CYs 2012 Through 2017
                          If Utilization and Payment Rates Remain the Same

                                       Year                    Potential Savings
                                       2012                     $ 1,882,726,731
                                       2013                       1,952,384,520
                                       2014                       2,016,314,061
                                       2015                       2,097,978,560
                                       2016                       2,191,812,068
                                       2017                       2,280,568,191
                                       Total                   $12,421,784,131




17
  The total amount of HCPCS codes selected is not equal to the sum of all HCPCS performed from CYs 2007
through 2011. The selection criteria specify that the condition need only be met during any 1 year to be included in
the sample.



Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   18
 Table 6: Additional Possible Medicare Savings for CYs 2012 Through 2017 by Lowering
 Outpatient Prospective Payment System Payment Rates To Equal Ambulatory Surgical
                       Center Prospective Payment System Rates

                      Savings Including 68% of the Savings Including 33% of the
                Year       At-Risk Population           At-Risk Population
                2012             $2,211,745,417                $1,073,347,042
                2013               2,302,229,829                1,117,258,593
                2014               2,382,881,818                1,156,398,529
                2015               2,486,667,984                1,206,765,345
                2016               2,606,478,140                1,264,908,509
                2017               2,718,636,081                1,319,338,098
                Total           $14,708,639,269                $7,138,016,116




Amb u la to ry S u rg i ca l S er vice s P a ym en t Di ff eren t i a l in Med ica re ( A - 0 5 - 1 2 - 0 0 0 2 0 )   19
                                              APPENDIX F: CMS COMMENTS 




  .(.,- f
   <'.>'/'   V IC<s""




  '···-4
                        DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services



        ~                                                                                        Administrator
                                                                                                 Washington, DC 20201




                        DATE:           DEC 1 3 2013

                        TO:           Daniel R. Levinson


                        FROM:


                        SUBJECT: 	 Office of Inspector General (OIG) Draft Report: Medicare and Beneficiaries
                                   Could Save Billions If CMS Reduces Hospital Outpatient Department Payment
                                   Rates for Ambulatory Surgical Center-Approved Procedures to Ambulatory
                                   Surgical Center Payment Rates (A-05-12-00020)

                        The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                        respond to the above subject OIG draft. OIG stated that the objectives of its review were to
                        determine how much Medicare--( 1) Has saved as a result of procedures being performed in
                        Ambulatory Surgical Centers (ASCs) instead of outpatient departments; and (2) Could save if
                        payment rates for the outpatient departments were reduced to the same level as ASC payment
                        rates. According to OIG, Medicare saved almost $7 billion during calendar years (CYs) 2007
                        through 2011 and could potentially save $12 billion from CYs 2012 through 2017 because ASC
                        rates are frequently lower than outpatient department rates for surgical procedures. In addition,
                        Medicare could generate savings of as much as $15 billion for CYs 2012 through 2017 if CMS
                        reduces outpatient department payment rates for ASC-approved procedures to ASC payment
                        levels for procedures performed on beneficiaries with low risk and no-risk clinical needs.

                        The OIG recommendations and the CMS response to those recommendations are discussed
                        below.

                        OIG Recommendations

                        The OIG recommends that CMS seek legislation that would exempt the reduced expenditures as
                        a result of lower outpatient perspective payment system (OPPS) payment rates from budget
                        neutrality adjustments for ASC-approved procedures.

                        If Congress passes the budget-neutrality exemption for the reduced expenditures, OIG
                        recommends that CMS take the following actions, which OIG estimated could save as much as
                        $15 billion from CYs 2012 through 20I 7:

                        • 	 Reduce OPPS payment rates for ASC-approved procedures on beneficiaries with no-ri sk
                            or low-risk clinical needs in outpatient departments.




Ambulatory Surgical S e rvices Paym e nt Diffe rential in M e dicare (A -05-1 2 - 00020)                                                    20
             Page 2 - Daniel R. Levinson


             • 	 Develop and implement a payment strategy in which outpatient departments would continue
                 to receive the standard OPPS payment rate for ASC-approved procedures that must be
                 provided in an outpatient department because of a beneficiary's individual clinical needs.

             CMS Response

             We do not concur with the recommendations. As OIG' s recommendations indicate, adopting
             these recommendations would require legislation and such a proposal is not currently included in
             the President's Budget. We further note that most ASC payment rates are based on the OPPS
             relative payment weights and an ASC-specific conversion factor. Because most ASC rates are
             based on OPPS rates, OIG's recommendations may raise circularity concerns with the respect to
             the rate calculation process. Lastly, we note that OIG suggests no specific clinical criteria to
             distinguish patients that can be adequate ly treated in an ASC relative to the hospital outpatient
             setting that would be needed to act on these recommendations.

             The CMS thanks OIG for their efforts on this issue and looks forward to working with OIG on
             this and other issues in the future.




Ambulatory Surgical S e rvices Paym e nt Diffe rential in M e dicare (A - 05 - 12 - 00020)                        21
